Department of Homeland Security
   Ofﬁce of Inspector General


      Immigration and Customs Enforcement 

               Privacy Stewardship 





OIG-10-100                              July 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      July 6, 2010

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses Immigration and Customs Enforcement’s plans and activities to
instill a privacy culture that protects sensitive personally identifiable information and
ensure compliance with federal privacy regulations. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 

Background ..........................................................................................................................2 

Results of Audit ...................................................................................................................4 

     ICE Has Made Progress in Privacy Stewardship...........................................................4 

     Program Operations Managers Can Improve Privacy Culture ......................................4 

     Recommendations........................................................................................................12 

     Management Comments and OIG Analysis ................................................................12 


Figures
     Figure 1:            ICE’s Purposes for Personally Identifiable Information .........................3 

     Figure 2:            Pillars of Privacy Stewardship ................................................................3 

     Figure 3:            ICE Reported Privacy and Security Incidents.........................................7 

     Figure 4:            Training Recommendations by Survey Respondents..............................9 

     Figure 5:            Privacy Integration in Information-Sharing Access Agreements..........11 


Appendixes
     Appendix A: Purpose, Scope, and Methodology.......................................................14 

     Appendix B: Management Comments to the Draft Report .......................................15 

     Appendix C: Legislation, Memorandums, Directives, and Guidance.......................17 

     Appendix D: The Fair Information Practice Principles ...........................................18 

     Appendix E: Component-Level Privacy Office Designation and Duties .................19 

     Appendix F: Selected Systems: PII Collected, Privacy Impact Assessments, System
 

                 of Records Notices, and Information Sharing......................................20 

     Appendix G: ICE Culture of Privacy Survey ............................................................21 

     Appendix H: Major Contributors to This Report ......................................................22 

     Appendix I: Report Distribution ..............................................................................23 


Abbreviations
     BMIS Web              Bond Management Information System Web Version 

     DARTTS                Data Analysis and Research for Trade Transparency System

     DHS                   Department of Homeland Security 

     FIPPs                 Fair Information Practice Principles

     FISMA                 Federal Information Security Management Act

     ICE                   Immigration and Customs Enforcement 

     NCVIS                 National Child Victim Identification System

     OIG                   Office of Inspector General 

     OMB                   Office of Management and Budget 

     PII                   personally identifiable information 

     PIA                   Privacy Impact Assessment 

     SEVIS I               Student and Exchange Visitor Information System 

     SORN                  System of Records Notice 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 We performed an audit of Immigration and Customs
                 Enforcement’s privacy stewardship. Our audit objectives were to
                 determine whether Immigration and Customs Enforcement’s plans
                 and activities instill a culture of privacy and whether it complies
                 with federal privacy laws and regulations. Appendix A provides
                 our purpose, scope, and methodology.

                 Immigration and Customs Enforcement has made progress
                 instilling a culture of privacy. Specifically, it demonstrated an
                 organizational commitment to privacy compliance by appointing a
                 privacy officer and establishing the Immigration and Customs
                 Enforcement Privacy Office. The Privacy Office provides
                 guidance to program and system managers who collect personally
                 identifiable information on meeting requirements for notice,
                 incident reporting, and privacy impact assessments. In addition,
                 the Privacy Office has established processes for initial and annual
                 privacy training and for addressing access, complaints, and redress
                 for individuals.

                 We are making three recommendations to the Assistant Secretary
                 to strengthen Immigration and Customs Enforcement’s privacy
                 stewardship. Immigration and Customs Enforcement can improve
                 its culture of privacy by (1) developing and implementing privacy
                 procedures and job-related privacy training to safeguard personally
                 identifiable information in program operations, (2) establishing
                 penalties for violations that correspond with Department of
                 Homeland Security privacy rules of conduct, and (3) establishing a
                 standardized process that includes Immigration and Customs
                 Enforcement Privacy Office review and approval of information-
                 sharing access agreements that involve personally identifiable
                 information.




               Immigration and Customs Enforcement Privacy Stewardship
 


                                        Page 1
 

Background
                               The Privacy Act of 1974, as amended, imposes requirements on
                               agencies whenever they collect, use, or disseminate personally
                               identifiable information (PII) in a system of records. PII refers to
                               any information that permits the identity of an individual to be
                               directly or indirectly inferred, including any information that is or
                               can be linked to that individual, whether the individual is a U.S.
                               citizen, legal permanent resident, or a visitor to the United States.
                               The Privacy Act grants to U.S. citizens and legal permanent
                               residents, access and amendment rights with limited judicial
                               review.
                               A mixed system is any system of records that collects, maintains,
                               or disseminates PII about U.S. persons and non-U.S. persons. For
                               mixed systems, DHS Memorandum 2007-01: DHS Privacy Policy
                               Regarding Collection, Use, Retention, and Dissemination of
                               Information on Non-U.S. Persons, requires the Department of
                               Homeland Security (DHS) to extend a variety of Privacy Act
                               protections to all persons (including aliens).1
                               Immigration and Customs Enforcement (ICE) is the largest DHS
                               investigative agency. ICE is responsible for enforcing immigration
                               laws and investigating people, money, and materials that support
                               terrorist and criminal activities. Almost 18,000 employees in more
                               than 400 offices around the world interact daily with the public or
                               collect, use, and disseminate PII about the public.
                               Figure 1 shows purposes for PII collection by three of ICE’s major
                               operations and for the maintenance of this PII in eight mixed
                               systems that we reviewed. In 2008, Detention and Removal
                               Operations, with support from the Office of the Chief Financial
                               Officer, processed nearly 80,000 bonds and removed almost
                               246,000 illegal aliens. ICE collects PII from more than 1 million
                               students, visitors, and sponsors for law enforcement and
                               immigration control. ICE agents use databases with more than
                               364,000 PII records on child victimization, money laundering, and
                               gang activity.

                                                ICE’s Purposes for Personally Identifiable Information
                                                     IMMIGRATION BONDS FOR DETAINEES
                                                    Office of the Chief Financial Officer systems
                                            Bond Management Information System Web Version (BMIS Web)
                                                          and Electronic Bonds (eBONDS)
                                  Records and maintains financial information on immigration bonds for aliens involved
                                    in removal proceedings
                                  Verifies alien eligibility for bond release; processes and tracks the life cycle of bonds


1
    DHS Memorandum 2007-01 does not create a right of judicial review for non-U.S. persons.


                            Immigration and Customs Enforcement Privacy Stewardship

                                                          Page 2
                  ICE’s Purposes for Personally Identifiable Information
                        STUDENT IMMIGRATION ENFORCEMENT
                          Office of Investigation Division 2 systems
            Student & Exchange Visitor Information System (SEVIS I) and SEVIS II
     Maintains information on F, M, and J Visa users, their dependents, and associated
       schools and sponsors
                           GLOBAL CRIMINAL INVESTIGATIONS
                           Office of Investigation Division 6 systems
      Data Analysis & Research for Trade Transparency System (DARTTS) and DARTTS
          Enterprise, National Child Victim Identification System (NCVIS), ICEGangs
     Analyzes trade and financial data for money laundering or other import-export crimes
     Combats exploitation of children, child pornography, and child sex tourism
     Maintains information on gang members and associates and gang-related activity
  Figure 1. ICE’s Purposes for Personally Identifiable Information
  Source: ICE Privacy Impact Assessments and System of Records Notices.

  DHS components are responsible for complying with federal
  privacy laws and requirements. Privacy Policy Guidance
  Memorandum 2008-01 establishes the Fair Information Practice
  Principles (FIPPs) as the DHS privacy policy framework. The
  FIPPs are a set of principles that govern the collection, handling,
  and maintenance of PII. Appendix C lists federal requirements and
  guidance related to ICE’s privacy stewardship.
  As illustrated in figure 2, the level of organizational commitment
  to privacy accountability drives the expectations for privacy
  stewardship at executive management, program operations
  management, and employee levels. Effective privacy stewardship
  includes (1) ongoing privacy risk assessment and mitigation; (2)
  standardized procedures that implement the FIPPs and other
  requirements; and (3) established privacy conduct, training, and
  safeguards in program operations.




  Figure 2. Pillars of Privacy Stewardship
  Source: Adapted from DHS Privacy Office, DHS Privacy Framework.

  A component’s culture of privacy results from how well its
  executive management, program operation managers, and
  employees understand, implement, and enforce its privacy
  commitment in their respective roles. Promotion of an effective
  culture of privacy leads to embedded shared attitudes, values,
  goals, and practices for complying with the requirements for
  proper handling of PII.


Immigration and Customs Enforcement Privacy Stewardship


                            Page 3

Results of Audit
         ICE Has Made Progress in Privacy Stewardship
                   ICE demonstrated its commitment to privacy stewardship by designating a
                   privacy officer and establishing a privacy office. The ICE Privacy Office
                   provides privacy guidance, training, and assistance in assessing risks to
                   PII. In addition, ICE has implemented processes for privacy notice,
                   access, complaints, correction, and redress for individuals.

                            Privacy Office

                            In April 2008, ICE established the ICE Privacy Office by
                            designating a privacy officer who is responsible for providing
                            support and guidance for integrating privacy requirements into
                            program operations. The ICE Privacy Office consists of five staff
                            members. The ICE Privacy Office reports to the ICE Assistant
                            Secretary’s Chief of Staff. See appendix E for the duties that
                            component privacy officers are required to perform. The ICE
                            Privacy Office performs the following activities:

                            •	 Serves as point of contact with the DHS Privacy Office.
                            •	 Communicates privacy initiatives through its network site,
                               which links to individual privacy laws, regulations, and
                               policies, as well as to the DHS Privacy Office’s public website.
                            •	 Provides additional guidance on privacy integration at points in
                               the information technology system life cycle, instructions for
                               reporting a privacy incident, and privacy tips on its network site.
                               In a survey that we conducted, almost 75% of respondents who
                               collect, handle, view, or maintain PII reported that they look for
                               privacy guidance on the ICE Privacy Office network site.2
                            •	 Monitors privacy compliance when responding to privacy
                               questions and assists managers in drafting privacy compliance
                               documentation.
                            •	 Manages ICE’s privacy incident responsibilities as defined in
                               the DHS Privacy Office’s Privacy Incident Handling Guidance
                               and notifies the DHS Privacy Office of PII incidents.




2
 In November 2009, the OIG emailed to the ICE workforce a survey on its culture of privacy. The survey solicited
opinions on how ICE employees could improve their understanding of privacy. See appendix G for the methodology
and details of the survey.


                          Immigration and Customs Enforcement Privacy Stewardship


                                                     Page 4

                              Initial and Annual Privacy Training

                              In compliance with Office of Management and Budget (OMB) M-
                              07-16, Safeguarding Against and Responding to the Breach of
                              Personally Identifiable Information, the ICE Privacy Office
                              provides initial privacy training for new employees and annual
                              refresher privacy training for current employees. As of October
                              2009, the ICE Privacy Office began participating in all biweekly
                              new employee orientation briefings to emphasize the importance of
                              privacy as a core value at DHS. In October 2009, 34% of ICE’s
                              survey respondents reported that they received privacy training
                              when they were hired.

                              ICE complies with the annual training requirement by requiring
                              that employees take the Information Assurance and Awareness
                              Training, which includes a module on safeguarding PII. The ICE
                              Office of Training and Development monitors and retains
                              employee training records, which show that 93% of employees
                              (16,526 of 17,795) completed the training in FY 2008. In October
                              2009, the ICE Privacy Office implemented a Culture of Privacy
                              Awareness course. Topics include penalties for noncompliance
                              with key privacy laws, obligations to report privacy incidents, and
                              a test on applying privacy procedures in various scenarios.

                              Privacy Impact Assessments

                              The E-Government Act of 2002 requires agencies to conduct
                              Privacy Impact Assessments (PIAs) for information systems that
                              collect, maintain, or disseminate PII.3 DHS Handbook 4300A
                              requires a risk assessment every 3 years or whenever there are
                              significant changes to the system. See appendix F for details
                              regarding the PIAs on the systems that we reviewed.

                              The ICE Privacy Office is making progress in obtaining approvals
                              of its PIAs. In November 2009, the DHS Office of the Chief
                              Information Officer reported that 51% (19 of 37) of ICE’s
                              operational PII systems have approved PIAs.4 In March 2010, ICE
                              had 66% approved PIAs and in May, the ICE Privacy Office
                              achieved a 72% completion rate.


3
  A Privacy Impact Assessment is the result of an analysis of how PII is collected, used, disseminated, and maintained, 

and represents how ICE has incorporated privacy concerns throughout the development, design, and deployment of a 

program, system, technology, or rulemaking. 

4
  The DHS Office of the Chief Information Officer developed an application, Trusted Agent FISMA, as an enterprise
 

compliance management tool that tracks data related to DHS components’ security status and privacy impact 

assessments, as well as plans of action and milestones to correct deficiencies. 



                           Immigration and Customs Enforcement Privacy Stewardship


                                                        Page 5

                             According to the DHS Privacy Office Privacy Impact Assessments
                             Official Guidance, every system that collects PII should have a
                             retention schedule describing how long the information will be
                             retained. Retention schedules ensure that components retain PII
                             for as long as necessary to fulfill the specified purpose of
                             collection. In compliance with OMB Circular A-130, ICE
                             program operations managers work with the Records Management
                             Branch to submit a records retention schedule to the National
                             Archives and Records Administration for approval and
                             registration. As of November 2009, 89% (33 of 37) of ICE’s PII
                             systems are in the approval process.

                             Processes for Privacy Notice, Access, Complaints, Correction,
                             and Redress for Individuals

                             ICE provides notice to individuals regarding the component’s
                             collection, use, dissemination, and maintenance of PII in three
                             specific ways:

                             •	 ICE provides Privacy Act statements for individuals from
                                whom PII is collected on forms and websites.
                             •	 The ICE Privacy Office’s public website shows its mission
                                statement, contact information, and privacy notice.
                             •	 The ICE Privacy Office provides assistance and guidance to
                                program operations managers regarding the development and
                                approval process for Privacy Impact Assessments (PIAs) and
                                System of Records Notices (SORNs).5 ICE has 30 PIAs and
                                13 SORNs that are approved by the DHS Privacy Office and
                                are available on its public website.

                             The ICE Privacy Office has processes to receive privacy
                             complaints and requests for access, correction, and redress from
                             individuals. Through its Privacy Office Tracking System, the ICE
                             Privacy Office tracks and resolves such complaints. Information
                             on ICE and other component privacy complaints is available on the
                             DHS Privacy Office public website.

         Program Operations Managers Can Improve Privacy Culture
                   As stewards, program operations managers are in a unique position to
                   provide leadership and instill a culture of privacy by promoting the
                   importance of protecting privacy to their employees. ICE program

5
 The System of Records Notice explains to the public how PII owners can exercise their rights granted through the
Privacy Act.


                          Immigration and Customs Enforcement Privacy Stewardship


                                                       Page 6

                   operations managers can improve the overall privacy culture by instilling
                   an internal discipline of applying privacy safeguards in four key areas:

                   •   Minimizing privacy incidents by developing operational procedures
                       that integrate privacy protections into daily work activities;
                   •   Providing job-specific privacy training and oversight;
                   •   Enforcing DHS privacy rules of conduct; and
                   •   Applying privacy policies to PII sharing with external agencies.

                            Program Operations Managers Are Instrumental in
                            Minimizing Privacy Incidents

                            DHS has privacy rules of conduct that can apply to different jobs
                            and operations. However, about 45% of ICE’s survey respondents
                            did not respond or responded incorrectly to questions regarding
                            proper privacy procedures as set forth in the DHS Privacy Office
                            Handbook for Safeguarding Sensitive Personally Identifiable
                            Information.

                            As indicated in figure 3, 72% (114 of 159) of all incidents were
                            reported under one of two categories: alteration/compromise of
                            information or misuse.6 Twenty-eight percent (45 of 159) of
                            incidents related to unauthorized access to ICE resources or other
                            incidents.

                                                       2-yr            Privacy Incidents      Security Incidents
                                DHS Categories
                                                      Period
                                of ICE Incidents
                                                    Incidents
                                                                 2008 2009       % change   2008   2009   % change
                            Alteration/Compromise
                                                        86        28       29       4%       19     10     - 47%
                            of Information
                            Misuse                      28         2        0     - 100%     19     7      - 63%
                            Unauthorized Access          5         1        1       0%       2      1      - 50%
                            Other                       40         0        0       0%       8      32     300%
                                     Totals            159        31       30       - 3%     48     50      4%

                            Figure 3. ICE Reported Privacy and Security Incidents (2008 and 2009)
                            Source: DHS Security Operations Center.


                            We analyzed each of the 61 privacy incidents reported for 2008
                            (31) and 2009 (30). Sixty-two percent (38 of 61) of privacy
                            incidents over the 2-year period involved the use of information
                            systems. The remaining 38% (23 of 61) resulted from loss or theft
                            of PII in laptops, mobile media devices, smart phones, hard drives,
                            and paper files under the responsibility of ICE employees or
                            contractors. We determined that 97% (59 of 61) of the incidents

6
 The DHS Privacy Office’s Privacy Incident Handling Guidance defines privacy incidents as unauthorized access or
potential access to PII in usable form, whether physical or electronic.


                          Immigration and Customs Enforcement Privacy Stewardship
 


                                                     Page 7
 

  occurred because employees or contractors did not follow DHS
  privacy rules of conduct. The remaining 3% (2 of 61) occurred
  because of improper implementation of system security controls.

  Managers and employees who we interviewed or surveyed told us
  that they have existing protocols and standards that provide
  privacy protection. For example, detention standards include the
  security of detainee records handled by nearly 8,000 Detention and
  Removal Operations personnel across 24 field offices, 161 subfield
  offices, and 22 detention service centers. Yet, we identified
  numerous instances during the 2-year period (2008 and 2009) of
  employees failing to protect PII. For example:

  •	 An ICE employee sent an unencrypted email containing PII to
     a personal email account.
  •	 Through inventory control, ICE discovered that a former ICE
     agent had lost his laptop, on which unencrypted investigative
     PII and physical security vulnerability reports were accessible.
  •	 An unencrypted personal thumb drive containing PII of Student
     Exchange Visitor Program exchange visitors was stolen from
     an ICE employee attending a conference in India.
  •	 Although an exiting ICE employee was debriefed, he left with
     a CD with the PII of 6,000 ICE agents. This incident was
     discovered by the new employing agency that found the PII
     and contacted ICE.
  •	 Detainee records have been shared with individuals who did
     not have a need for this information, but these privacy
     incidents were not reported.
  •	 In a hotel, ICE agents lost paper PII of individuals under 

     investigation. 

  •	 Hundreds of paper PII records pertaining to ICE employees 

     were left in a laptop case that was sold at a government 

     auction. 


  The inability of employees to apply DHS rules of privacy conduct
  to their jobs and operations places PII at risk. As supervisors,
  program operations managers can promote an understanding of the
  importance of privacy and help employees apply privacy rules to
  the work setting. An additional layer of security results when job-
  specific privacy procedures are embedded as shared attitudes,
  values, goals, and practices in the workplace. When employees are
  reminded of privacy implications and proper procedures for
  handling PII, they may avoid causing privacy incidents.
  Furthermore, by establishing an internal discipline for proper



Immigration and Customs Enforcement Privacy Stewardship


                        Page 8

  handling of PII, program operations managers can instill and
  improve the overall culture of privacy.
  ICE Needs Job-Related Privacy Training to Comply With
  Requirements

  OMB M-07-16 requires job-specific privacy training and
  recommends that agencies augment training through creative
  methods, job-specific communications, and advanced training to
  promote and improve the employees’ understanding of their
  privacy responsibilities. Yet, fewer than 7% of survey respondents
  reported receiving specialized or advanced privacy training.
  Although the ICE Privacy Office provides initial and annual
  privacy training, ICE employees need a better understanding of
  how to integrate privacy protections into their daily work.

  Figure 4 shows that 87% (273 of 315) of survey respondents
  indicated that the available training and communication of privacy
  requirements are too general to be effective for their program-level
  application. Respondents recommended the following
  improvements: (1) more frequent, innovative, job-specific training
  (46%), (2) in-person training (30%), and (3) improved
  communication of privacy requirements (11%). Only 13% (42 of
  315) of respondents—most of who do not handle PII—indicated
  that the present privacy training is acceptable.

          Training Recommendations by Survey Respondents
            ICE Privacy Culture Survey (N=315 respondents)



                 13%                             More frequent, innovative, job-
                                                 specific training: 46%


         11%                                     In-person training: 30%
                                         46%



                                                 Improved communication of
                                                 privacy requirements: 11%

               30%
                                                 No change to present training:
                                                 13%

  Figure 4. Training Recommendations by Survey Respondents
  Source: OIG Analysis, ICE Culture of Privacy Survey.


  ICE relies on computer-based privacy training to expand its reach
  to almost 18,000 employees located in more than 400 offices
  worldwide. Therefore, in-person training is limited. The ICE
  Privacy Office is improving communications by meeting with

Immigration and Customs Enforcement Privacy Stewardship


                           Page 9

  groups regarding privacy compliance. The FIPPs for privacy
  accountability require managers and supervisors to provide
  training that integrates privacy safeguards into the daily work of
  employees and contactors who handle PII. However, program
  operations managers, who can provide in-person privacy training,
  coaching, and reminders, have not had the resources for
  customizing operational procedures to include privacy protections.

  Forty-six percent of survey respondents requested more frequent
  and innovative job-specific privacy training. Program operations
  managers who we interviewed have not had the administrative
  support for implementing innovative or job-related privacy
  training. If they do not have the appropriate type and level of
  training and reinforcement of privacy protections, employees and
  system users who collect, use, or maintain PII may be careless or
  may not understand their responsibilities. The public’s PII may be
  exposed to unnecessary risks.

  ICE Needs Adequate Enforcement of Penalties for Privacy
  Rules of Conduct

  ICE managers do not have specific penalties for privacy violations
  that correspond with the DHS privacy rules of conduct according
  to the DHS Privacy Office Handbook for Safeguarding Sensitive
  Personally Identifiable Information. The need for specificity in the
  existing ICE Table of Offenses and Penalties causes inadequate
  enforcement of penalties for privacy violations. In 2008 and 2009,
  managers enforced penalties for 31% (19 of 61) of all reported
  privacy violations.

  In October 2008, the ICE Privacy Office recommended inclusion
  of privacy conduct into the existing rules of security behavior and
  changes to the ICE Table of Offenses and Penalties as an efficient
  way to enforce employees’ privacy obligations. At present, the
  agency and union reviews have not been completed.

  Information-Sharing Access Agreements Do Not Adequately
  Address Privacy

  ICE has information-sharing access agreements for exchanging
  information when there is a need to share such information with
  external agencies to carry out national security, immigration, law




Immigration and Customs Enforcement Privacy Stewardship
 


                        Page 10
 

                             enforcement, or intelligence functions.7 DHS Information Sharing
                             Coordinating Council developed a standardized process for the
                             creation and approval of information-sharing access agreements
                             that includes a privacy review. For example, the DHS Federal
                             Information Sharing Environment Privacy and Civil Liberties
                             Protection Policy requires that these agreements describe how the
                             FIPPs have been implemented in the information-sharing
                             environment.8 See appendix D for the eight FIPPs principles.

                             None of the 11 information-sharing access agreements that ICE
                             provided to us implemented all of the eight FIPPs. Figure 5
                             illustrates the incompleteness and inconsistencies of these
                             agreements, through which ICE shares large volumes of financial
                             data and the public’s PII. See appendix F for details on the
                             systems’ information sharing.

                                  System Names              BMIS Web SEVIS I       DARTTS ICEGangs
                                 Fair Information                 Did Information-Sharing Access
                                Practice Principles               Agreements Address the FIPPs?
                              Security                        Yes         Yes        Yes         Yes
                              Use Limitation                   Yes        No          Yes         Yes
                              Purpose Specification             No        Yes         Yes         No
                              Accountability and
                                                                No        No          Yes         No
                              Auditing (incl. Training)
                              Transparency                      No        No          Yes         No
                              Data Minimization                 No        No          No          Yes
                              Data Quality and Integrity        No        No          No          Yes
                              Individual Participation          No        No          N/A         N/A
                             Figure 5. Privacy Integration in Information-Sharing Access Agreements
                             Source: 11 ICE information-sharing access agreements.


                             According to the DHS Information Sharing Access Agreements
                             Methodology Guidebook, component program operations
                             managers are responsible for working with their privacy
                             representatives to draft new information-sharing access agreements
                             and update legacy agreements. As ICE’s privacy representative,
                             the ICE privacy officer is best situated to identify the privacy
                             issues related to ICE’s mission and understand how best to
                             implement DHS privacy policies.

                             Based on our review of nine agreements, ICE managers have not
                             followed the Information Sharing Coordinating Council’s
                             methodology or DHS privacy policies. There is no indication that

7
  An information-sharing access agreement is any memorandum of understanding, memorandum of agreement, letter of 

understanding, letter of agreement, or any form of agreement that is used to facilitate the exchange of information
 

between two or more parties. 

8
  The information-sharing environment is an approach that facilitates the sharing of terrorism information. 



                          Immigration and Customs Enforcement Privacy Stewardship
 


                                                         Page 11
 

     the ICE Privacy Office or a privacy representative was involved in
     the development of these agreements. In addition, there are
     omissions in addressing privacy considerations when sharing
     information. Consistently implementing the FIPPs through these
     agreements would ensure that sharing agencies have agreed to
     comply with protocols for handling PII, data quality needed for the
     specified use, reliability of data sources, data security, and
     minimizing data sharing to the amount necessary to meet the
     purpose of the agreement.

     In addition, legacy agreements have not been updated to reflect
     current DHS guidance. Therefore, both legacy and newer
     agreements have omissions in addressing privacy considerations.
     Without a standardized process at the component-level to ensure
     that all PII information sharing has a privacy review prior to
     drafting agreements, mistakes, misunderstandings, data misuse,
     and incidents can occur.

Recommendations
     We recommend that the Assistant Secretary of ICE:

     Recommendation #1: Direct program operational managers to
     develop and implement privacy procedures and job-related privacy
     training to safeguard PII in program operations.

     Recommendation #2: Establish penalties for violations that
     correspond with DHS privacy rules of conduct.

     Recommendation #3: Establish a standardized process that
     includes the ICE Privacy Office for the review and approval of
     information-sharing access agreements that involve PII.

Management Comments and OIG Analysis
     We obtained written comments on a draft of this report from the
     Assistant Secretary of ICE. We have included a copy of the
     comments in appendix B.

     ICE concurred with our findings and recommendations.
     Concerning recommendation #1, ICE is taking steps to provide
     training on supervisory roles to support privacy awareness and
     compliance. We consider recommendation #1 open, pending our
     review of the finalized course documentation and training schedule
     by ICE.


   Immigration and Customs Enforcement Privacy Stewardship


                           Page 12

  ICE concurs with recommendation #2. ICE indicated it plans to
  adopt the DHS "PII Acknowledgement and Agreement" form that
  identifies penalties for violations of privacy rules of conduct.
  Also, ICE is considering amendments to the ICE Table of Offenses
  and Penalties. We consider recommendation #2 open, pending our
  review of ICE's adoption of the "PII Acknowledgement and
  Agreement" form and other actions.

  ICE concurs with recommendation #3. According to ICE, it
  follows the DHS process for the review and approval of
  information sharing access agreements that involve PII. ICE also
  stated that the agreements reviewed by the OIG for the audit are
  older agreements drafted prior to the creation of the ISCC
  standards and prior to the existence of the ICE Privacy Office. As
  clarification, our review included both older agreements and
  agreements drafted after the establishment of the ISCC standards
  and ICE Privacy Office. We consider recommendation #3 open,
  pending our review of documentation that defines the process for
  engagement and the role of the ICE Privacy Office for component
  level review and approval of all ICE information sharing access
  agreements.




Immigration and Customs Enforcement Privacy Stewardship
 


                        Page 13
 

Appendix A
Purpose, Scope, and Methodology

                   Our objective was to determine whether ICE’s plans and activities
                   instill and promote a culture of privacy and whether ICE complies
                   with federal privacy laws and regulations. As background for this
                   audit, we researched and reviewed federal guidance and laws
                   related to ICE’s responsibilities for privacy protections. We
                   reviewed testimonies, ICE documentation, and reports related to
                   ICE’s privacy, information technology security, and program
                   management.
                   We interviewed officials from the DHS Privacy Office and
                   discussed its implementation of the DHS Privacy Framework and
                   duties of component privacy officers. In addition to interviewing
                   ICE’s Privacy Officer and Chief Information Security Officer, we
                   interviewed more than 70 program managers and information
                   system security professionals at ICE headquarters and field sites.
                   We emailed a survey to the ICE workforce to obtain their
                   recommendations for improving their understanding of privacy and
                   for an indication of their privacy knowledge. Four hundred and
                   seventy of the 1,274 respondents offered written comments on the
                   status, issues, suggestions, or challenges in ICE privacy
                   stewardship. (See appendix G.)
                   We selected a sample of 8 systems from a total of 37 systems that
                   handle personally identifiable information. For this sample, we
                   reviewed technical information, system security documentation,
                   architectures, financial justifications, privacy impact assessments,
                   SORNs, application of the Fair Information Practice Principles, and
                   ICE and program-level application of federal and DHS privacy laws
                   and guidance.
                   Our analysis is based on direct observation, review of applicable
                   documentation, and interviews. We conducted this performance
                   audit between August 2009 and May 2010 in accordance with
                   generally accepted government auditing standards. The standards
                   require that we plan and perform the audit to obtain sufficient,
                   appropriate evidence to provide a reasonable basis for our findings
                   and conclusions based on our audit objectives. We believe that the
                   evidence obtained provides a reasonable basis for our findings and
                   conclusions based on our audit objectives.
                   The principal OIG points of contact for the audit are Frank Deffer,
                   Assistant Inspector General for Information Technology Audits at
                   (202) 254-4041, and Marj Leaming, Director, System Privacy
                   Division at (202) 254-4172. Major OIG contributors to the audit
                   are identified in appendix H.


                 Immigration and Customs Enforcement Privacy Stewardship


                                         Page 14

Appendix B
Management Comments to the Draft Report



                                                                                       ,....   __ . ,,_
                                                                                       >OlL"' ......., '..·
                                                                                       "'_LIC ""..
                                                                                                                     .........,

                                                                                       u.s. immigration
                                                                                       and CIISlOms
                                                                                       Enforcement




        MEMORA"Dl'M FOIl.: F'an'Deff"
                                       Aui."""       1~,,,,,-1(H (j"",,,l (~lr.lormH'ioc.T,,,,.m,IO\I;·       f.lId't!
                                       Oflkoof In~ '-'<;"'~

        .-'[(oM:                       M...'"N.F"..      '<f)~~
                                       Oepu,y Chl<rFol.:.(l<I.1 Ofr"..        (""in~)
                                       t.s.      Inl""~""i,.,   ..>.ll'1l«Q"" 1',1"""",,,",

        SI:BJECT:                      Con,"O(," '" ():(i D("f, ~<f<"' "I("I' ~<i".,y S"''''ml'hlp . .-\'tNi M,)'
                                       2~1O


        U.S. I"",i~,"'i,", .,,1  C''''''',,,,,
                                         r~,rO"'<"""L (Telo,           ,po;:«."i"'",
                                                                            L1>.: :>pportcni'y Lo CO<llIll<tl, on
        th< dian   "'po". I~ IO'?,,"" to OIr]'o ""'''''''''''''t'm, "" ",",ion oy IC~;

        RK<lm""ndal'." II I: llire<' ,,.,...,,,,, "",,.,,,,,,,1 "'''"''.''' 10 <ie"<Iop "11<1 irrpl.'m:r.l "';',,,,'
        ~~..."" and jeb-,e[,'N ~~"~,y ",1<':"1 ,,, "'f<8',"d PII In p",sn,m op_·",,;"n..


        ~"I"""<» I: ICE       <"'><"".     ICE hao aJ,,->d,' i'U""~""H"d '-'<>ic I" i".., " •. "i,,~ Ii. ,,]1
        "''I''"y'"'' ""~ ,,,," ..~I " L",inin~ pI,n I,... will dcliv.'f thruLliih "arl,", mom. "",doli",,,
        p,i\'>cy ".i"",~ ".1 &"I,bn;< ,.. «npJuleo> ",,,..,I OIl Ihcir ""~",,"<l ",k>. ""Ii,. . Md
        """,,"'hili';", I" >d<li,;'-'n. 1;;1: "ill,,,", i.'pJ<n""" p<im,y 'e'i",n! k>r ICE """''''''''os loo'
        will Male them .wa", of'hd, oblif>..... ,", '"I""";"'" '" <><,~"'~ "",I I,"~I",,"'" p,i"'''r
        pro"""i",,, i" ,.-0<"'""''''   .nJ ,><>Ii,;"" ~ov'''';n~ """' I""~nun .,"'~.



        It<<Q,,,o,o,,d.,l." .2, I':,,>hli<h P'",rt",s fOf .i.,bt",,,, I"'" c"""'P'J:.1 w;Ih IJHS "';''''l' ,,,I,,
        ofwndoc'-

         R"p'." ~ 2, ICE CO""",.. The OilS Pri"",y O,li" "",,",.ned p,I,''''y ",I<" of <oM"" in 10,
        "'''''ibwlf''' .'i<</,X'",,·</inK S<-,,,il,,·c l'm",.,liy Mcn<.'/i.bi<- b~~".I",,- Rc~""'i"ll
        ",n,..'l'~"''''. Ill, 00, f<i"",y om", in '0"'" it'li"" with LIl<: Chi,fl{um"" C.p.ta. Ott\co
        ICIICOI """ orr"" of (;,11«" COO""" (OGCJ 'kv'h.,?,"<l • -~II A,lmowl'd;:Cm<n' aM
        ,\grc<mruf' form tI", id<nt,fL" p<.","i" for "';;,I"i",,, "ftlle ,111" 111" Ii",,, i, curTen,ly ",01"
        • ,iN! ,"vl<w by CHCO. am OCC iIllU will I>c impl<:m<:.. <d "' p:m of \h<: C"lt"'" oll'ri,'3<'
        Aw,"",,,, '"I",,>! "",,'" '"' IJIISco..-"". I" ,.I.~'.)ft. Ie!, ',<"","d«',"_ " ",,,I,,,,nt< '0 tl,..
        ICE T.01< ofOtl<n.... 'Old i'en,I,i.. "".. "'ill <;',ify <>'1>1;"-, <'<~"~i",,. of,' I",on' '0
        """"""'00 whh the lIand'-,. I'" "'-'f'Sum-Ji"•.""mWw fm"""ily /,!<n'ifi"b1, Info''''''Ii"n,




                        Immigration and Customs Enforcement Privacy Stewardship
 


                                                                Page 15
 

Appendix B
Management Comments to the Draft Report


                                                                           Office of/1M! ChiefHnoncial OfflCtr

                                                                           U.S. Ilr(lartmtnt or lIomrlam.l S«uril,'
                                                                           500 12110 Stm:t. SW
                                                                           Washington. DC 20536


                                                                           u.s. Immigration
                                                                           and Customs
                                                                           Enforcement


        ICE rcqucsts this recommendation be considercd rcsolvcd and open.

        RecollllUend~,tion #3: Establish a standardizcd proccss that includes thc ICE Privacy Ollice for
        the rcvicw and approval of infomlation-sharing acccss agrccmcnts that involve PII.

        Response # 3: ICE concurs. DI-IS has a standardized process that already exists and is being
        implcmcntcd by ICE that requires the participation ofthc Privacy Office in the review and
        approval of ICE infonnation sharing acccss agrccmcnts (ISAl\s) that involve PH. The OHS
        lnfonnation Sharing Coordinalion Council (ISCC) In/ormation Sharing and Access Agreemelll
        Melhodology Guidebook (February 2008) requires the participation of a privacy representative in
        the ISAA drafting process (see p.6). The ISI\A Qucstionnairc, which is intcnded to collcct the
        information needed to form an ISAI\, also requires the participation of the privacy rcpresentative
        in answering ccrtain qucstions (see p.6, Appendix 1\). The agrecmcnts rcvicwed by the OIG for
        Ihis audit are older agreemcnts drafted prior to thc crcation of the ISCC standards and prior to the
        cxistcnce oflhc ICE Privacy Office.

        ICE requests this rccommendation be considered resolvcd and closed.

        Should you havc questions or conccrns, plcasc contact Michacl Moy, 010 Portfolio Manager, at
        (202) 732-6263, or by c-mail at MichacI.Moy@dhs.gov.




                      Immigration and Customs Enforcement Privacy Stewardship
 


                                                     Page 16
 

Appendix C
Legislation, Memorandums, Directives, and Guidance
Related to ICE Privacy Stewardship Audit
                                                    LEGISLATION
Privacy Act of 1974, 5 U.S.C. § 552a (2004). http://www.opm.gov/feddata/USC552a.txt

E-Government Act of 2002, Public Law 107-347, 116 STAT. 2899 (2002).
http://www.gpo.gov/fdsys/pkg/PLAW-107publ347/pdf/PLAW-107publ347.pdf

Implementing Recommendations of the 9/11 Commission Act of 2007, Public Law 110-53, 121 Stat. 266, 360 (2007).
http://www.nctc.gov/docs/ir-of-the-9-11-comm-act-of-2007.pdf

The Freedom of Information Act, 5 U.S.C. § 552, Public Law 104-231, 110 Stat. 3048 (1996).
http://www.justice.gov/oip/foia_updates/Vol_XVII_4/page2.htm

                                       OMB CIRCULAR AND MEMORANDA

OMB Circular A-130: Management of Federal Information Resources, November 28, 2000.
http://www.whitehouse.gov/omb/assets/omb/circulars/a130/a130trans4.pdf

OMB M-09-29: FY 2009 Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management (August 20, 2009). http://www.whitehouse.gov/omb/assets/memoranda_fy2009/m09-29.pdf

OMB M-07-16: Safeguarding Against and Responding to the Breach of Personally Identifiable Information (May 22,
2007). http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf

                                           DIRECTIVES AND GUIDANCE

DHS Memorandum: Designation of Component Privacy Officers (June 5, 2009). (No external link available)

DHS Management Directive Number 0470.2: Privacy Act Compliance (October 6, 2005). (No external link available)

Privacy and Civil Liberties Policy Guidance Memorandum 2009-01: The Department of Homeland Security’s Federal
Information Sharing Environment Privacy and Civil Liberties Protection Policy (June 5, 2009).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_crcl_guidance_ise_2009-01.pdf

Privacy Policy Guidance Memorandum Number 2008-01: The Fair Information Practice Principles: Framework for
Privacy Policy at the Department of Homeland Security (December 29, 2008).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2008-01.pdf

Privacy Policy Guidance Memorandum Number 2007-01: DHS Privacy Policy Regarding Collection, Use, Retention,
and Dissemination of Information on Non-U.S. Persons (January 7, 2009).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2007-1.pdf

DHS Privacy Office: Handbook for Safeguarding Sensitive Personally Identifiable Information at the Department of
Homeland Security (October 31, 2008). http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_spii_handbook.pdf

DHS Privacy Office: Privacy Incident Handling Guidance (September 10, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_pihg.pdf

DHS Privacy Office: Privacy Impact Assessments Official Guidance (May 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_pia_guidance_may2007.pdf

DHS 4300A: Sensitive Systems Handbook Version 7.1 (November 13, 2009). (No External Link Available)




                          Immigration and Customs Enforcement Privacy Stewardship
 


                                                      Page 17
 

Appendix D
The Fair Information Practice Principles

The DHS Privacy Office, Privacy Policy Guidance Memorandum Number 2008-01,
December 29, 2008, adopted the Fair Information Practice Principles as its privacy
policy framework for application by DHS programs and activities.

                    EIGHT FAIR INFORMATION PRACTICE PRINCIPLES

Transparency: DHS should be transparent and provide notice to the individual regarding its
collection, use, dissemination, and maintenance of personally identifiable information (PII).


Individual Participation: DHS should involve the individual in the process of using PII and, to
the extent practicable, seek individual consent for the collection, use, dissemination, and
maintenance of PII. DHS should also provide mechanisms for appropriate access, correction,
and redress regarding DHS use of PII.


Purpose Specification: DHS should specifically articulate the authority that permits the
collection of PII and specifically articulate the purpose or purposes for which the PII is intended
to be used.


Data Minimization: DHS should collect only PII that is directly relevant and necessary to
accomplish the specified purpose(s) and retain PII only for as long as is necessary to fulfill the
specified purpose(s).


Use Limitation: DHS should use PII solely for the purpose(s) specified in the notice. Sharing
PII outside the department should be for a purpose compatible with the purpose for which the
PII was collected.


Data Quality and Integrity: DHS should, to the extent practicable, ensure that PII is accurate,
relevant, timely, and complete.


Security: DHS should protect PII (in all media) through appropriate security safeguards against
risks such as loss, unauthorized access or use, destruction, modification, or unintended or
inappropriate disclosure.


Accountability and Auditing: DHS should be accountable for complying with these principles,
providing training to all employees and contractors who use PII, and auditing the actual use of
PII to demonstrate compliance with these principles and all applicable privacy protection
requirements.




                      Immigration and Customs Enforcement Privacy Stewardship
 


                                              Page 18
 

Appendix E
Component-Level Privacy Office Designation and Duties


                      COMPONENTS TO DESIGNATE PRIVACY OFFICERS

                U.S. Immigration and Customs Enforcement
                Federal Emergency Management Agency
                National Protection and Programs Directorate
                Office of Intelligence and Analysis
                Science and Technology Directorate
                Transportation Security Administration
                U.S. Citizenship and Immigration Services
                United States Coast Guard
                U.S. Customs and Border Protection
                United States Secret Service

                             COMPONENT PRIVACY OFFICER DUTIES


        Communicate the component privacy initiatives, both internally and externally.


        Implement and monitor privacy training for employees and contractors.


        Provide privacy information to the DHS Privacy Office for quarterly Federal
        Information Security Management Act reporting, Section 803 of the Implementing
        Recommendations of the 9/11 Commission Act reporting, the DHS Privacy Office
        Annual Report, and other reporting requirements as needed.

        Serve as the point of contact to handle privacy incident response responsibilities
        as defined in the Privacy Incident Handling Guidance.

        Assist in drafting and reviewing Privacy Threshold Assessments, Privacy Impact
        Assessments (PIAs), and Systems of Records Notices (SORNs), as well as any
        associated privacy compliance documentation.

        Monitor component’s compliance with all federal privacy laws and regulations;
        implementing corrective, remedial, and preventative actions; and notifying the
        DHS Privacy Office of privacy issues or noncompliance when necessary.
Source: DHS Memorandum, Designation of Component Privacy Officers, June 5, 2009.




                         Immigration and Customs Enforcement Privacy Stewardship
 


                                                   Page 19
 

            Appendix F
            Selected Systems: PII Collected, Privacy Impact Assessments, System of Records
            Notices, and Information Sharing

                                                         Privacy Impact       System of
          System Name and PII Collected                                                                        Information Sharing
                                                          Assessment        Records Notice
                 Operational Systems
Data Analysis and Research for Trade                     Data Analysis      Trade              DARTTS shares information with law enforcement
Transparency System (DARTTS) collects contact            and Research for   Transparency       entities for investigatory purposes and with other
information about U.S. and foreign importers,            Trade              Analysis and       federal, state, local, and foreign agencies.
exporters, brokers, and consignees; identification       Transparency       Research (TTAR)    DARTTS shares its reports on trade anomalies
numbers for importers, exporters, and brokers; and       System             October 31, 2008   with other DHS components for law enforcement
U.S. financial data that includes Social Security and    (DARTTS)                              purposes. DARTTS uses trade data provided by
tax identification numbers, bank account                 October 20,                           federal agencies, foreign governments, and
information, and passport information.                   2008, Updated                         financial data collected by Customs and Border
                                                         April 26, 2010                        Protection and the Department of Treasury
                                                                                               Financial Crimes Enforcement Network.
Bond Management Information System Web                   Bond               Bonds              BMIS Web shares information, as needed, with the
Version (BMIS Web) collects information about            Management         Management         Internal Revenue Service and the Department of
bonded aliens, individuals posting the bond              Information        Information        Justice regarding interest paid to obligors,
(obligors), surety companies or bonding agencies,        System Web         System (BMIS)      collections on monies owed on a bond, and
and bond information such as amount, bond                Version (BMIS      September 11,      investigations of a surety bonding agent/agency of
number, or date posted.                                  Web) August 25,    2008               financial stability, licensing, or business practices.
                                                         2008, Updated
                                                         November 20,
                                                         2009
Electronic Bonds (eBONDS) will collect                   Electronic         Bonds              eBONDS shares information with the surety
information such as an alien’s name, A-number,           BONDS July 14,     Management         agents that have requested bond for an alien.
bondable status, and detention location; the bond        2009               Information        eBONDS provides alien information to notify surety
requester’s name and address; surety agent’s                                System (BMIS)      agents that an alien is eligible for a bond and to
name, username, and password; and surety                                    September 11,      facilitate the creation of the bond documentation
company’s name, address, email address, and                                 2008               package by the surety agent.
phone number.
Student and Exchange Visitor Information                 Student and        Student and        SEVIS I shares information with certified schools,
System (SEVIS I) collects information about              Exchange Visitor   Exchange Visitor   designated sponsors, and exchange visitors.
certified schools, designated sponsors, foreign          Information        Information        SEVIS I exchanges data with DHS components
students or exchange visitors, and their dependents      System February    System March       and other federal agencies such as the
during their stays in the United States.                 5, 2005            22, 2005           Department of State and Department of Justice.
                                                         (out of date)      (out of date)
National Child Victim Identification System              National Child     NCVIS is not a     NCVIS shares information with state, local, and
(NCVIS) is a repository of 164,000 child victim          Victim             system of          tribal government and federal law enforcement
images. Agents use the images as an aid for              Identification     records. A         agencies when these agencies submit an
international law enforcement activities against child   System (NCVIS)     SORN is not        unconfirmed image to the ICE Cyber Crime Center
exploitation crimes.                                     August 21, 2009    required.          to request a match. The images are never shared
                                                                                               with non-law enforcement entities.
ICEGangs collects information about gang                 ICEGangs         Intelligence         ICEGangs is a database that shares information
members or associates directly from individuals          Database         Records System       regarding gangs, gang members, and gang
during normal law enforcement investigative              January 15, 2009 (IIRS) December      associates when there is a need for this
activities such as arrests, field interviews with an                      9, 2008, 73 FR       information by state, local, and tribal government
informant, or by reviewing evidence.                                      74735                and federal law enforcement agencies, as well as
                                                                                               DHS components such as Customs and Border
                                                                                               Protection.
             Non-Operational Systems
Student and Exchange Visitor Information                 Student            Student and        Not available
System (SEVIS II) will collect the same information      Exchange Visitor   Exchange Visitor
as SEVIS I.                                              Information        Information
                                                         System II          System January
                                                         December 4,        5, 2010
                                                         2009
Data Analysis and Research for Trade                   See DARTTS         See DARTTS         Not available
Transparency System (DARTTS) Enterprise will
collect the same information as DARTTS.
             Source: The DHS Privacy Office has ICE Privacy Impact Assessments and System of Records Notices at
             http://www.dhs.gov/xabout/structure/editorial_0338.shtm (accessed January 21, 2010).




                                          Immigration and Customs Enforcement Privacy Stewardship

                                                                      Page 20
Appendix G
ICE Culture of Privacy Survey

OIG developed a privacy questionnaire with involvement of the ICE Privacy Office. The
purpose of the survey was to obtain employees’ recommendations for improvements in
understanding privacy.

In October 2009, the OIG emailed the ICE workforce a link to a secure site to complete
an online privacy questionnaire. Participation was voluntary, confidential, and accessible
only by the OIG. The results of the survey provided insights into areas in which
improvements are needed. The following figure provides the levels of job responsibility,
location, and lengths of services for respondents who either completed the survey or
provided selected responses.

                          Demographics Of Participants Of ICE Culture Survey
    Level of Job Responsibility                        Location                      Length of Service
Entry-level employees (15.9%)                                                    Less than 3 months (4.2%)
                                             Headquarters (21.6%)
Mid- to high-level (nonmanager)                                                    3–12 months (11.5%)
                                             Field offices (68.5%)
      employees (64.4%)                                                              1–3 years (22.6%)
                                                 Other (9.9%)
Supervisors/managers (19.7%)                                                     More than 3 years (61.7%)
Source: OIG Analysis, ICE Culture of Privacy Survey.


Of the 1,274 respondents, 53.6% (683) completed the survey, 23.6% (300) provided
selected responses, and 22.8% (291) initiated the survey but did not provide further
response. The completed survey response rate was 3.8% (683 of 17,795).9

The following figure shows our grouping of 470 written comments by survey
respondents. There are five key themes: privacy awareness and training (67%), internal
privacy communications (14%), privacy accountability (8%), privacy culture (6%), and
understanding policy (5%). The report provides a more detailed analysis regarding
improvements in privacy awareness and training.

                   Key Themes of Written Comments
                ICE Culture Survey (N=470 respondents)


                          5%
                     8%
                                                  Awareness/Training: 67%
                6%
                                                  Internal Communication: 14%
                                                  Privacy Culture: 6%
             14%
                                                  Privacy Accountability: 8%
                                      67%         Understanding Policy: 5%




Source: OIG Analysis, ICE Culture of Privacy Survey.


9
 Throughout the report, we used the FY 2008 training base population provided to us by the ICE Office of Training
and Development.


                          Immigration and Customs Enforcement Privacy Stewardship
 


                                                         Page 21
 

Appendix H
Major Contributors to this Report


                    System Privacy Division

                    Marj Leaming, Director
                    Eun Suk Lee, Lead Privacy Auditor

                    Hung Huynh, Privacy Specialist
                    Cory Missimore, Privacy Specialist
                    Kevin Mullinix, Management and Program Assistant

                    Amanda Strickler, Referencer




                  Immigration and Customs Enforcement Privacy Stewardship
 


                                          Page 22
 

Appendix I
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary for Immigration and Customs Enforcement
                      DHS Privacy Office
                      ICE Audit Liaison Office
                      ICE Privacy Office

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                  Immigration and Customs Enforcement Privacy Stewardship
 


                                          Page 23
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
